              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Audit Report
Home Office Expenses Submitted by Fluor
Federal Services, Inc., on Savannah River
Nuclear Solutions, LLC's U.S. Department of
Energy Management & Operating (M&O)
Contract No. DE-AC09-08SR22470




OAS-L-13-08                           April 2013
                                  Department of Energy
                                     Washington, DC 20585

                                          April 19, 2013


MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE


FROM:                     Rickey R. Hass
                          Deputy Inspector General
                             for Audits and Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Home Office Expenses
                          Submitted by Fluor Federal Services, Inc., on Savannah River
                          Nuclear Solutions, LLC's U.S. Department of Energy Management
                          & Operating (M&O) Contract No. DE-AC09-08SR22470"

BACKGROUND

The attached report presents the results of an audit of home office expenses submitted by Fluor
Federal Services, Inc. (Fluor) through invoices to Savannah River Nuclear Solutions, LLC,
(SRNS) for loaned employees working on the Management and Operating (M&O) contract.
The Department of Energy (Department) awarded M&O Contract No. DE-AC09-08SR22470 to
SRNS, a for-profit joint venture, established between Fluor, Newport News Nuclear, Inc., and
Honeywell International. SRNS commenced performance on the M&O contract on August 1,
2008. Fluor has a majority share in the joint venture.

The Office of Inspector General contracted with an independent certified public accounting firm,
KPMG, LLP (KPMG), to assess the accuracy and completeness of the results and conclusions
reported by SRNS Internal Audit on its Corporate Reachback Floor Check Review of invoices
for loaned employees from Fluor. KPMG was also tasked with performing additional testing on
an invoiced Fluor "loaned employee" to determine whether home office expenses were included
in the invoiced costs, and if so, quantify the amount of questioned costs. The SRNS contract,
Clause H-20, entitled Home Office Expenses, states "Home office expenses, whether direct or
indirect, relating to activities of the Contractor are unallowable, except as otherwise specifically
provided in the Contract or specifically agreed to in writing by the Contracting Officer consistent
with DEAR 970.3102-3-70."

OBSERVATIONS AND CONCLUSIONS

KPMG concluded that the results and conclusions reported by SRNS Internal Audit on its
Corporate Reachback Floor Check Review of invoices for loaned employees from Fluor was
accurate and complete as they related to their audit objectives. The results of KPMG's work
disclosed that SRNS' costs incurred for contract DE-AC09-08SR22470, for the period August 1,
2008 through August 21, 2012, included home office expenses of $1,256,481 and $36,763 in
Facilities Capital Cost of Money resulting from its use of Fluor loaned employees.
                                                2

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Savannah River Operations Office indicated that it had no comments to the draft report.
Subsequent to the completion of audit field work, the Savannah River Operations Office
Contracting Officer initiated action to disallow the $1,256,481 in home office expenses.
Therefore, we are not making any recommendations in this report. Also, Savannah River
Operations Office elected to waive the formal exit conference.

PERFORMANCE AUDIT

KPMG conducted this performance audit in accordance with generally accepted Government
auditing standards. These standards require that KPMG plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and
recommendations based on the audit objectives. The procedures considered the SRNS'
accounting system and internal controls as related to the audit objectives; however, KPMG was
not engaged to, and did not render an opinion on SRNS' internal controls over financial reporting
or over financial management systems.

The Office of Inspector General monitored the progress of the audit and reviewed the report and
related documentation. Our review disclosed no instances where KPMG did not comply, in all
material respects, with performance audit requirements. KPMG is responsible for the attached
report dated April 16, 2013, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                        Performance Audit


  Audit of Home Office Expenses Submitted by Fluor Federal
Services, Inc., on Savannah River Nuclear Solutions, LLC’s U.S.
                      Department of Energy
  Management & Operating (M&O) Contract No. DE-AC09-
                          08SR22470




Auditee: Savannah River Nuclear Solutions, LLC

As of Date: October 10, 2012




KPMG LLP
1801 K Street NW
Washington, DC 20006
                                                          Table of Contents


EXECUTIVE SUMMARY .......................................................................................................................... 2

BACKGROUND .......................................................................................................................................... 4

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................................................ 4
   Objective................................................................................................................................................... 4
   Scope ........................................................................................................................................................ 4
   Methodology............................................................................................................................................. 5

RESULTS ..................................................................................................................................................... 6
   Finding, Recommendation, and Responses .............................................................................................. 6
   Conclusion .............................................................................................................................................. 17
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006

EXECUTIVE SUMMARY


October 10, 2012


Mr. Mark Mickelsen
Contracting Officer's Representative
U.S. Department of Energy (DOE)
Office of Inspector General
1617 Cole Boulevard
Golden, CO 08401

Dear Mr. Mickelson:

This report presents the results of our audit of home office expenses submitted by Fluor Federal
Services, Inc. (FFS) at the Savannah River Site (SRS) conducted to address the performance audit
objective relative to Savannah River Nuclear Solutions, LLC (hereinafter referred to as “Auditee” or
“SRNS”). Our work was performed during the period July 27, 2012 to October 10, 2012, and our
results, reported herein, are as of October 10, 2012.

We conducted this performance audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
recommendations based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and recommendations based on our audit objective.

The audit objective was to assess the accuracy and completeness of the results and conclusions
reported by SRNS Internal Audit on its Corporate Reachback Floor Check Review of invoices for
loaned employees from FFS and to perform additional testing on an invoiced Fluor Federal Services
“loaned employee” to determine whether home office expenses were included in the invoiced costs,
and if so, recommend the amount of questioned costs for consideration by the U.S. Department of
Energy (DOE). The audit was conducted in accordance with generally accepted auditing standards
(GAAS) and the standards applicable to performance audits contained in Government Auditing
Standards (GAS). The criteria we relied upon to conduct the audit included Federal Acquisition
Regulation (FAR) Part 99, Cost Accounting Standards, FAR Part 31, Contract Cost Principles and
Procedures, Department of Energy Acquisition Regulation (DEAR) 970.3102-3-70, 970.3102–05–6;
DOE-SR Contract DE-AC09-08SR224407, Clauses H-20 and I-51(j); and DOE Acquisition Letters
AL-2005-11 and AL-2012-04.

The DOE awarded Management and Operating (M&O) Contract No. DE-AC09-08SR22470 to SRNS,
a for-profit joint venture, established between Fluor Federal Services, Inc. (FFSI), Newport News
Nuclear, Inc. (NNN), and Honeywell International, to manage and perform the M&O contract at the
SRS. SRNS submitted its proposal in response to DOE RFP No. DE-RP09-06SR22470 in June 2007.
On August 1, 2008, SRNS commenced performance on the M&O contract. Amongst the joint venture
companies, FFS has a majority share in the joint venture, SRNS.



                                                                                            Page 2
                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
The SRNS contract DE-AC09-08SR22470, Clause H-20, entitled Home Office Expenses, states “Home
office expenses, whether direct or indirect, relating to activities of the Contractor are unallowable,
except as otherwise specifically provided in the Contract or specifically agreed to in writing by the
Contracting Officer consistent with DEAR 970.3102-3-70”. Clause I51(j), Determining Allowable
Costs, of the SRNS contract states, “the Contracting Officer shall determine allowable costs in
accordance with the Federal Acquisition Regulation subpart 31.2 and the Department of Energy
Acquisition Regulation subpart 48 CFR 970.31 in effect on the date of this contract and other
provisions of this contract.”
As further described in this report, our audit disclosed that the corporate reachback invoices submitted
by FFS to SRNS (both segments of Fluor Corporation under common control) included an indirect
(overhead support) burden, a G&A burden, and Facilities Capital Cost of Money (FCCOM) applied to
the loaned labor costs. The FFS G&A pool contained costs that were allocated to it (as a Fluor
segment) in accordance with CAS 403, Allocation of Home Office Expenses to Segments. The nature of
the costs in question are home or corporate office general and administrative expenses incurred in the
general management of the contractor's business as a whole and covered by the fee for management
and operating contracts as described in DEAR 970 3102-3-70. As such, we noted “home office”
expenses were included in the “reachback” labor costs through the application of FFS G&A burden
billed to SRNS and in turn charged to DOE. FFS also included a FCCOM charge in its invoice to
SRNS which has been included in billings to DOE.
Based upon the audit procedures performed and the results obtained, we have met our audit objective.
We conclude that the results and conclusions reported by SRNS Internal Audit on its Corporate
Reachback Floor Check Review of invoices for loaned employees from FFS was accurate and
complete as relates their audit objectives. The results of our work disclosed that Savannah River
Nuclear Solutions, LLC’s costs incurred for contract DE-AC09-08SR22470, for the period August 1,
2008 through August 21, 2012, included home office expenses of $1,256,481 and $36,763 in FCCOM
resulting from its use of Fluor Federal Services loaned employees. Subsequent to our review, the
Savannah River Operations Office Contracting Officer initiated action to disallow the $1,256,481 in
home office expenses.
This performance audit did not constitute an audit of financial statements in accordance with auditing
standards generally accepted in the United States of America and Government Auditing Standards.
KPMG was not engaged to, and did not render an opinion on the Auditee’s internal controls over
financial reporting or over financial management systems. This report is intended solely for the
information and use of the U.S. Department of Energy and management of the Auditee, and is not
intended to be, and should not be, used by anyone other than these specified parties.

Sincerely,




                                                                                                Page 3
BACKGROUND

On December 23, 2008, Savannah River Nuclear Services, LLC (SRNS or the Auditee) entered into
Loaned Employee Agreements with Fluor Federal Services (FFS) and Newport News Nuclear, Inc.
(NNN), and then with Honeywell International on February 11, 2009. The purpose of the Loaned
Employee Agreements is to provide for “reachback” to the SRNS joint venture companies’ employee
pool for critical skills needed in the performance of the Management and Operating (M&O) contract at
the Savannah River Site (SRS). SRNS also entered into Cost Transfer Agreements with each joint
venture company, stipulating the invoicing and payment procedures for employees loaned to SRNS
under the “corporate reachback” arrangement.

FFS and SRNS are separate segments or business units, as defined in CAS 403, Allocation of Home
Office Expenses to Segments within Fluor Corporation’s cost accounting structure, as described in
Fluor Corporation’s CASB Disclosure Statement. The two segments above FFS and SRNS in the cost
accounting hierarchy in ascending order are (1) Fluor Government Group Headquarters (FGG Hqs)
and (2) Fluor Corporation (Corp HQ) which are considered an intermediate home office and home
office, respectively. As such, Corp HQ and FGG Hqs allocate home office expenses to FFS and SRNS
in accordance with CAS 403.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The audit objective related to the Auditee was to assess the accuracy and completeness of the results
and conclusions reported by SRNS Internal Audit on its Corporate Reachback Floor Check Review of
invoices for loaned employees from FFS, and to perform additional testing on an invoiced FFS “loaned
employee” to determine whether home office expenses were included in the invoiced costs, and if so,
recommend the amount of questioned costs for consideration by the U.S. Department of Energy
(DOE).

The criteria we relied upon to conduct the audit included Federal Acquisition Regulation (FAR) Part
99, Cost Accounting Standards, FAR Part 31, Contract Cost Principles and Procedures, Department of
Energy Acquisition Regulation (DEAR) 970.3102-3-70, 970.3102–05–6; DOE-SR Contract DE-
AC09-08SR224407 Clauses H-20 and I-51(j); and DOE Acquisition Letters AL-2005-11 and AL-
2012-04.

Scope

The scope of this performance audit was to review the Auditee’s corporate reachback costs charged to
the SRS M&O contract to determine whether home office expenses had been included on FFS
corporate reachback billings to SRNS, and to assess the accuracy and completeness of results and
conclusions reached by SRNS Internal Audit in its Corporate Reachback Floor Check Review dated
May 21, 2012 as it relates to FFS corporate reachback costs. The period under review was from
inception of the contract award, August 1, 2008, to the most recent billing, August 21, 2012.

We conducted our performance audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to performance audits contained in Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and recommendations based on our

                                                                                             Page 4
audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and recommendations based on our audit objective.

In performing our procedures, we considered the Auditee’s accounting system and internal controls as
related to our audit objective; however, we were not engaged to, and did not render an opinion on the
Auditee’s internal controls over financial reporting or over financial management systems.

SRNS is responsible for establishing and maintaining an acceptable accounting system, including
internal controls, for accumulating, reporting, and billing costs. Our responsibility is to provide
findings and recommendations based on the results of our performance audit.

Methodology

To accomplish our performance audit objective, we performed the following:
•   Met with DOE representatives to gain an understanding of the history of the M&O contract and
    relevant background information
•   Reviewed applicable rules, regulations, and guidance, as necessary
•   Reviewed the Cost Accounting Standards (CAS) Disclosure Statements for SRNS and other Fluor
    entities contained within the Fluor Corporation cost accounting structure
•   Reviewed relevant FFS Defense Contract Management Agency (DCMA) approved indirect rate
    agreements for the periods 2008 – 2012
•   Reviewed the SRNS Internal Audit Report on Corporate Reachback Floor Check Review SR2012-
    06:
    o   Discussed procedures performed with the SRNS Internal Audit personnel responsible for the
        audit and resulting report
    o   Walked through methodology followed and procedures performed
    o   Reviewed Internal Audit work papers
•   Re-performed the procedures performed by Internal Audit during the Corporate Reachback Floor
    Check Review by selecting a separate Corporate Reachback employee to test and followed the
    same procedures used by SRNS Internal Audit in its audit SR2012-06
•   Met with SRNS and FFS personnel to discuss home office and indirect costs, to gain an
    understanding of how such charges ultimately flow to the DOE through the SRNS billings
•   Obtained detail of the FFS general and administrative (G&A) indirect cost rate and interviewed
    FFS and SRNS personnel regarding the cost accounting practices related to the cost elements
    within the G&A pool, to determine the nature of the functions, activities, and elements of cost and
    to determine whether home office costs are included in the G&A cost pool
•   Determined the amount of home office expenses that were billed to DOE through the FFS G&A
    rate applied to loaned employees
•   Prepared results of analyses and documented total recommended questioned costs




                                                                                               Page 5
RESULTS

Our performance audit did not result in a finding related to the accuracy or completeness of SRNS
Internal Audit’s Corporate Reachback Floor Check Review SR2012-06. However, our work resulted
in one finding regarding home office costs on FFS corporate reachback invoices submitted to SRNS.
The Savannah River Operations Office elected not to have an exit conference given that we are not
making any recommendations in this report.


Finding, Recommendation, and Responses

Finding No. 2012-14-SRNS-01 – Home Office Expense and Facilities Capital Cost of Money


Criteria:

•   SRNS contract DE-AC09-08SR22470, Clause H-20, entitled Home Office Expenses, states “Home
    office expenses, whether direct or indirect, relating to activities of the Contractor are unallowable,
    except as otherwise specifically provided in the Contract or specifically agreed to in writing by the
    CO consistent with DEAR 970.3102-3-70.”

•   CAS 403, Allocation of Home Office Expenses to Segments, Paragraph 30(a), states:

       (2) Home office means an office responsible for directing or managing two or more, but
           not necessarily all, segments of an organization. It typically establishes policy for,
           and provides guidance to the segments in their operations. It usually performs
           management, supervisory, or administrative functions, and may also perform service
           functions in support of the operations of the various segments. An organization
           which has intermediate levels, such as groups, may have several home offices which
           report to a common home office. An intermediate organization may be both a
           segment and a home office.

        (4) Segment means one of two or more divisions, product departments, plants, or other
            subdivisions of an organization reporting directly to a home office, usually
            identified with responsibility for profit and/or producing a product or service. The
            term includes Government-owned contractor-operated (GOCO) facilities, and joint
            ventures and subsidiaries (domestic and foreign) in which the organization has a
            majority ownership. The term also includes those joint ventures and subsidiaries
            (domestic and foreign) in which the organization has less than a majority of
            ownership, but over which it exercises control.

•   DEAR 970.3102-3-70, Home Office Expenses, states:

    (a) For on-site work, DOE's fee for management and operating contracts, determined under
        the policy of and calculated per the procedures in 48 CFR 970.1504–1–3, generally
        provides adequate compensation for home or corporate office general and administrative
        expenses incurred in the general management of the contractor's business as a whole.

•   DEAR 970.4402-3, Purchasing from Contractor-affiliated Sources


                                                                                                 Page 6
•   FAR 52.215-17, Waiver of Facilities Capital Cost of Money

•   Fluor Corporation Disclosure Statement Revision 18, effective January 1, 2012.

•   Fluor Government Group Headquarters Disclosure Statement Revision 12, effective January 1,
    2012.

•   FFS Disclosure Statement Revision 10, effective January 1, 2011.


Condition:

SRNS and FFS are separate segments under the Fluor Corporation and Fluor Government Group
Headquarters , and as a result, receive a share of home and intermediate home office cost allocations in
accordance with CAS 403. SRNS’ share of Corp HQ and FGG Hqs allocations were calculated on a
“memorandum” basis for purposes of CAS 403, but are not transferred to SRNS’ financial statements
and were not charged to the DOE M&O contract. However, FFS’ allocation of the Corp HQ and FGG
Hqs were included in its G&A cost pool.

In accordance with the Loaned Employee Agreement and Cost Transfer Agreement between SRNS
and FFS, employees loaned to SRNS by FFS under the corporate reachback arrangement were billed at
actual cost plus applicable FFS burdens (fringe benefits and G&A costs). The fully burdened costs,
including travel expenses for the employees under the corporate reachback arrangement, were billed to
SRNS and charged to the M&O contract.

We reviewed the corporate reachback invoices submitted by FFS to SRNS to identify the types and
amount of burdens applied to loaned labor, noting that FFS applied an indirect rate, a G&A rate, and
FCCOM to the loaned labor costs. We also reviewed FFS’ CASB Disclosure Statement to identify the
major functions, activities, and elements of cost included in each of the burden pools included on the
corporate reachback invoices, noting the following:

•   Item No. 4.2.0 (a) General and Administrative Expense Pool includes FFS B&P and pursuits cost,
    Group Executives, Corporate & Government Group Allocations which includes base compensation
    labor, national domestic benefits distribution, and corporate and professional central services
    charges. All G&A is generated from allocations. This description indicates that the G&A costs in
    the pool are allocations from Fluor Corporation, Fluor Government Group Headquarters, or other
    directly assigned or central service charges.

    We discussed the composition of the costs within the FFS G&A pool with the Fluor Director,
    Federal Cost and Pricing, and confirmed that the FFS G&A costs were included in the G&A rates
    charged for the FFS corporate reachback (i.e., loaned employees) costs invoiced to SRNS.

    The FFS G&A costs are categorized as follows:

    •   Corporate Allocations (Residual)
    •   Corporate Sales & Marketing
    •   Group Executive – Government Services
    •   Fluor Government Group HQ – Management
    •   Fluor Government Group HQ – Sales & Marketing


                                                                                                Page 7
    •   Bid & Proposal
    •   Pursuits

    Our discussion also revealed that the “Bid and Proposal” and “Pursuits” categories included in the
    G&A pool were directly allocated to FFS G&A and therefore were not considered home office
    type expenses incurred for the general management of the corporation as a whole.

•   FFS also applies a “field staff overhead rate” to the loaned labor cost billed to SRNS. This burden
    is for the benefit expense and support costs (as described in FFS CASB Disclosure Statement Item
    No. 4.1.0.2 and 4.1.0.3) incurred for the corporate reachback employees who receive Fluor fringe
    benefits and benefit from FFS support functions, such as payroll and human resources. These
    indirect cost burdens are separately identified and accounted for on the corporate reachback
    invoices submitted by FFS to SRNS.

•   FCCOM was applied by FFS to the billings for labor and employee travel on the corporate
    reachback invoices, which were charged to the M&O contract by SRNS.

While the G&A costs applied to the corporate reachback costs were allocated to FFS in accordance
with CAS 403, the origin of these costs within Fluor Corporation’s cost accounting structure and the
functions performed for which those costs were incurred does not change. Moreover, FFSI (a Fluor
entity) has a majority interest in the joint venture (SRNS). Based upon our analysis of FFS’ G&A costs
applied to the corporate reachback invoices, the nature of the functions performed for which the costs
were incurred and the origin of the costs within Fluor Corporation’s cost accounting structure (i.e.,
costs incurred at Corp HQ & FFG Hqs), fall within the definition of home and intermediate home
office costs as described within CAS 403 and DEAR 970 3102-3-70. Those costs were incurred for
management, supervisory, or administrative functions in support of the operations of the various
segments (i.e., SRNS, FFS, and other segments); and were general and administrative expenses
incurred in the general management of the contractor's business as a whole (i.e., Fluor Corporation’s
business as a whole).

Because FFSI, a related Fluor entity, has a majority interest in the SRNS joint venture, the corporate
reachback arrangement between SRNS and FFS is an agreement between affiliates under common
control and not necessarily an “arms length” subcontract. According to SRNS, the corporate reachback
program is a “human resources” function. Fluor’s majority interest in the SRNS joint venture and the
manner in which the corporate reachback arrangement works shows the direct relationship of FFS and
SRNS, both segments within the overall Fluor Corporation structure. All of the Fluor segments benefit
from the “general and administrative expenses incurred in the general management of Fluor
Corporation’s business as a whole” (i.e., home office costs).

The FFS G&A costs (except B&P and pursuits costs which were specifically incurred for FFS)
included on the corporate reachback invoices submitted to SRNS, included home office costs from
Fluor home and intermediate home offices. The M&O contract does not allow costs for home office
expenses.

The FCCOM rate applied to the “corporate reachback” costs results in cost of money charges that may
not be allowable costs to DOE under the M&O contract, because the FAR Cost Principles and the
Agency Supplement DEAR 970.3102-3-70(a)1(ii) disallow those costs.




                                                                                               Page 8
Cause:

SRNS management stated that the H-20 clause within M&O contract DE-AC09-08SR22470 and
DEAR 970.3102-3-70 applies only to the DOE contractor, SRNS, and therefore, the fully burdened
FFS corporate reachback costs (which include home office allocations from Fluor Corporation and
Fluor Government Group Headquarters via the FFS G&A rate) charged by SRNS to the M&O contract
were appropriate, because the FFS G&A costs are attributable to FFS and not SRNS.

Similarly, SRNS management stated that the FFS FCCOM rate that was charged to the M&O contract
through SRNS was appropriate because FFS does not operate under an advance payment arrangement
as SRNS does under the DOE M&O contract and that FAR 52.215-17, Waiver of Facilities Capital
Cost of Money applies only to SRNS (the contractor).

Effect:

We reviewed FFS cumulative billings from August 1, 2008 through August 21, 2012, to determine the
cumulative G&A costs billed to SRNS through the FFS corporate reachback arrangement. We also
reviewed the cost elements that comprised the FFS G&A cost pool for each year (2008 through 2012).
The cost element detail was derived from the FFS “Final Incurred Cost Proposal” data. We extracted
the data from the pool that related to home office expenses to derive a G&A rate excluding those costs.
Then, we applied the adjusted G&A rate to the cumulative billings and computed the variances
between the G&A costs that were billed and what would have been billed if the adjusted G&A rate was
applied. The variances shown in the table below are the home office costs charged through the FFS
G&A rate and the FCCOM billed to SRNS on the FFS corporate reachback invoices and subsequently
charged to the M&O contract.

                        Year         G&A           FCCOM              Total
                        2008        $ 221,174         $ 3,451         $ 224,625
                        2009          455,915          13,763           469,678
                        2010          295,263          10,496           305,759
                        2011          197,764           6,136           203,900
                        2012           86,365           2,917            89,282
                                   $1,256,481        $ 36,763       $ 1,293,244

Recommendation:

Subsequent to our review, the Savannah River Contracting Officer initiated action to disallow
the $1,256,481 in home office expenses cited in our report. Therefore, we are not making any
recommendations in this report.

Management Response:

Below is the SRNS Management response to your Draft Notification of Finding and Recommendation
regarding the audit of Home Office Expenses Submitted by Fluor Federal Services to SRNS.



                                                                                               Page 9
Thank you for the opportunity to respond. SRNS respectfully disagrees with KPMG’s finding and
recommendation. The Draft Notification questions a portion of the labor costs for the “reachback”
personnel acquired from Fluor Federal Services based on a misinterpretation of Clause H-20 and
DEAR 970.3102-3-70. As further discussed below, the labor and related costs of the “reachback”
personnel are not (and cannot be considered) “home office expenses” because that is a term
specifically defined by the applicable regulations, and applies only to home office expenses allocated,
directly or indirectly, to SRNS by SRNS’s home office. The Draft Notification also contains factual
errors that may have contributed to KPMG’s misinterpretation of Clause H-20 and DEAR 970.3102-3-
70.

Clause H-20, Home Office Expenses, states: “Home office expenses, whether direct or indirect,
relating to activities of the Contractor are unallowable, except as otherwise specifically provided in the
contract or specifically agreed to in writing by the CO consistent with DEAR 970.3102-3-70, ‘Home
Office Expenses.’” Although the allowability of home office expenses is governed by Clause H-20
and the Federal Acquisition Regulation (“FAR”) cost principles, the direct and indirect allocation of
home office expenses is governed by Cost Accounting Standard (“CAS”) 403, Allocation of Home
Office Expenses to Segments. See, e.g., DIRECTV Group, Inc. v. United States, 670 F.3d 1370, 1376
(Fed. Cir. 2012) (“Although the CAS governs allocability, i.e., what portions of a cost are assigned to a
particular segment or contract, the FAR generally governs whether a party may apply or recover that
cost.”) Indeed, the CAS Board, by statute, has the “exclusive authority to prescribe, amend, and
rescind cost accounting standards, and interpretations of the standards … governing measurement,
assignment, and allocation of costs to contracts with the Federal Government.” 41 U.S.C. § 1502(a)(1)
(emphasis added). For that reason, the U.S. Court of Appeals for the Federal Circuit has “specifically
held that, if there is any conflict between the CAS and the FAR as to an issue of allocability, the CAS
governs.” Boeing North American, Inc. v. Roche, 298 F.3d 1274, 1283 (Fed. Cir. 2002) (citing United
States v. Boeing Co., 802 F.2d 1390, 1395 (Fed.Cir.1986), and Rice v. Martin Marietta Corp., 13 F.3d
1563, 1565 n. 2 (Fed. Cir. 1993)).

Both the FAR and CAS 403 contain the same definition of “home office,” namely—

        Home office means an office responsible for directing or managing two or more, but
        not necessarily all, segments of an organization. It typically establishes policy for, and
        provides guidance to the segments in their operations. It usually performs
        management, supervisory, or administrative functions, and may also perform service
        functions in support of the operations of the various segments. An organization which
        has intermediate levels, such as groups, may have several home offices which report to
        a common home office. An intermediate organization may be both a segment and a
        home office.

FAR 31.001; 48 C.F.R. § 9904.403-30(a)(2). Both also contain the same definition of “segment”—

        Segment means one of two or more divisions, product departments, plants, or other
        subdivisions of an organization reporting directly to a home office, usually identified
        with responsibility for profit and/or producing a product or service. The term includes
        Government-owned contractor-operated (GOCO) facilities, and joint ventures and
        subsidiaries (domestic and foreign) in which the organization has a majority
        ownership. The term also includes those joint ventures and subsidiaries (domestic and
        foreign) in which the organization has less than a majority of ownership, but over
        which it exercises control.


                                                                                                     Page 10
Id.; id. § 9904.403-30(a)(4).

It is a fundamental requirement of CAS 403 that home office expenses “be allocated directly to
segments to the maximum extent practical.” 48 C.F.R. § 9904.403-40(a)(1). Home office expenses
that are not directly allocated must be allocated indirectly to the benefitting segments through either a
homogeneous expense pool under CAS 403-40(b) or a residual cost pool under CAS 403-40(c). Id.

Applying the plain language of these provisions, it is clear that none of the home office expenses
allocated to SRNS, either directly or indirectly, have been charged to DOE in contravention of Clause
H-20.

Clause H-20 applies to “Home office expenses … relating to activities of the Contractor….” The
“Contractor” is Savannah River Nuclear Solutions, LLC, a South Carolina limited liability company
created on May 18, 2007, to compete for award of the DOE Contract. In fact, the solicitation leading
to award of the Contract specifically required that the “offeror” be a “single legal entity.” Thus, three
companies formed and own SRNS: Fluor Federal Services, Inc. (“FFSI”)—48%; Newport News
Nuclear, Inc. (“NNN”)—34%; and Honeywell International (“HI”)—18%. The Draft Notification
confuses Fluor Federal Services (“FFS”), a CAS segment of Fluor Government Group Headquarters
(“FGG Hq”), and FFSI, the legal entity that owns a 48% share of SRNS. The Draft Notification also
mistakenly asserts that “FFS has majority ownership and leads the management and performance of
the M&O contract with DOE.” FFS is not a legal entity and does not have any ownership interest in
SRNS. Although FFSI owns the largest (48%) share of SRNS, neither FFSI nor the other two member
companies has a majority ownership or controlling interest in SRNS within the meaning of the SRNS
Operating Agreement.

SRNS is a segment that reports directly to an intermediate home office, FGG Hq, which in turn reports
directly to a home office, Fluor Corporation (“Fluor”). Fluor allocates home office expenses to SRNS
in accordance with CAS 403. FGG Hq, as an intermediate home office, also allocates home office
expenses to SRNS in accordance with CAS 403. However, the home office expenses allocated to
SRNS by Fluor and FGG Hq are not billed to DOE because they are treated as unallowable costs under
Clause H-20.

By contrast, the “reachback” costs are the labor and related costs of FFS employees who are working
under the Contract as seconded employees or employees on short or long term assignments. FFS is not
a home office or an intermediate home office, does not have any segments, and does not allocate home
office expenses either directly or indirectly—to SRNS or any other entity. Although the fully
burdened labor rates for the “reachback” personnel include overhead and general and administrative
(“G&A”) expenses, those costs are not “home office expenses … relating to activities of the
Contractor.” They are instead home office expenses allocated to—and relating to the activities of—
FFS. Accordingly, by its plain language, Clause H-20 is not applicable to the “reachback” costs.
Therefore, there are no costs to disallow under Clause H-20.

DEAR 970.3102-3-70, Home office expenses, is similarly inapplicable. It states:

        (a) For on-site work, DOE’s fee for management and operating contracts, determined
            under the policy of and calculated per the procedures in 970.1504-1-3, generally
            provides adequate compensation for home or corporate office general and
            administrative expenses incurred in the general management of the contractor’s
            business as a whole.


                                                                                                Page 11
       (1) DOE recognizes that some Home Office Expenses are incurred for the
           benefit of a management and operating contract. DOE has elected to
           recognize that benefit through fee due to the difficulty of determining the
           dollar value applicable to any management and operating contract. The
           difficulty arises because:

               (i) The general construct of a management and operating contract
                   results in minimal Home Office involvement in the contract work,
                   and

               (ii) Conventional Home Office Expense allocation techniques that use
                    bases such as total operating costs, labor dollars, hours etc., are
                    not appropriate because they inherently assume significant
                    contractor investment (in terms of its own resources, such as,
                    labor, material, overhead, etc.). Contractor investments are
                    minimal under DOE's operating and management contracts. The
                    contracts are totally financed by DOE advance payments, and
                    DOE provides government-owned facilities, property, and other
                    needed resources.

       (2) From time to time, the fee for a management and operating contract may
           not be adequate compensation for Home Office Expenses incurred for the
           benefit of the contract. An indication that such a case exists is the need for
           significant home office support to deal with issues at the site that occur
           without the fault or negligence of the contractor, for example, the need for
           home office legal support to deal with third party, environmental, safety,
           or health issues.

       (3) In such a case, the contracting officer, after obtaining the HCA’s approval,
           may consider a contractor request for additional compensation. The
           contractor may request—

               (i) Fee in addition to its normal fee (but see 970.1504-1-3(b)(1) if the
                   contract is for the management and operation of a laboratory); or

               (ii) Compensation on the basis of actual cost.

       (4) Because the contract’s fee provides some compensation for Home Office
           Expenses, the contractor's request for additional compensation must
           always be for an amount less than the Home Office Expenses that are
           incurred for the benefit of the management and operating contract.

(b) For off-site work, the DOE allows Home Office Expenses under architect-
    engineer, supply and research contracts with commercial contractors performing
    the work in their own facilities. Home Office Expenses may, however, be included
    for reimbursement under such DOE off-site architect-engineer, supply and
    research contracts, only to the extent that they are determined, after careful
    examination, to be allowable, reasonable, and properly allocable to the work.


                                                                                            Page 12
             Work performed in a contractor's own facilities under a management and
             operating or construction contract may likewise be allowed to bear the properly
             allocable portion of allowable Home Office Expenses.

For the same reason that the “reachback” costs are not “home office expenses … relating to activities
of the Contractor” under Clause H-20, they are also not “home or corporate office general and
administrative expenses incurred in the general management of the contractor’s business as a whole”
under DEAR 970.3102-3-70. Once again, the “contractor” is SRNS. The overhead and G&A
allocations to FFS are not incurred in the general management of SRNS’s business as a whole.
Moreover, the fact that the fully burdened “reachback” labor rates include overhead and G&A does not
mean that SRNS is being allocated home office expenses. Put another way, transferring fully burdened
labor is not a “Conventional Home Office Expense allocation technique” within the meaning of DEAR
970.3102-3-70(a)(1)(ii). Accordingly, by its plain language, DEAR 970.3102-3-70 is not applicable to
the “reachback” costs. Therefore, there are no costs to disallow under DEAR 970.3102-3-70.

The labor costs of the “reachback” are instead governed—and permitted—by Clause I.56(e)(4), which
states in pertinent part: “Allowable costs in the purchase or transfer from contractor affiliated sources
shall be determined in accordance with 48 CFR 970.4402-3 and 48 CFR 970.3102-3-21(b).” DEAR
970.4402-3(b) states that subcontracts for performance of the contract work by a contractor-affiliated
source requires DOE authorization and may involve an adjustment of the contractor’s fee, if any. DOE
authorization for the “reachback” personnel was granted at the time of contract award, and was
presumably taken into account when the parties agreed upon the contract fee. In accordance with
DEAR 970.4402-3(b)(1), 970.4402-3(c)(1)(i) and FAR 31.205-26(e), the purchase or transfer of
“reachback” services is based on cost. Accordingly, the “reachback” labor costs are permitted by the
terms of the contract.

The FFS “reachback” employees working under the Contract are supported by and receive all of their
fringe and other benefits from FFS. Their fully burdened labor rates include:
        •    Base Compensation Labor,
        •    National Payroll Burden Rate,
        •    Field Staff Overhead Rate (if not housed in a Fluor facility) or Home Office
             Overhead Rate 1 (if housed in a Fluor facility),
        •    Facilities Capital Cost of Money , and
        •    General and Administrative (“G&A”) Rate.2

SRNS’s intent to use these reachback employees—and a description of the costs included in their fully
burdened labor rates—were fully disclosed and individually itemized in Section 2 of Volume III of
SRNS’s proposal for the Contract. For example, Volume III, page 25 of SRNS’s proposal listed
several “Key Estimating Assumptions, Clarifications, and/or Exceptions,” including that—

        The proposed key personnel costs shown in the estimate summary worksheet “SUM
        Team” and SUM Key” include all indirect costs, including labor overhead, G&A and
1
  Even though this rate is named a “Home Office Overhead Rate”, it does not contain any home office allocations
as defined by CAS 9904-403. Home office means the employees are located in a FFS facility and not in a project
location.
2
  A complete description of these indirect cost pools and rates is found in the FFS CAS Disclosure Statement,
Revision 10.

                                                                                                      Page 13
       Cost of Money (COM). As required in the solicitation, the fringe benefit portion of
       labor overhead is included as part of annual compensation.

The costs included in the fully burdened labor rates for the FFS “reachback” employees were even
more clearly described on page 29 of Volume III of SRNS’s proposal. It stated:

       Basis of Data – Forward Pricing Rates
       •   All labor costs within this proposal are reconciled to the domestic field
           labor overhead rate of 54.30% effective as of April 10, 2007, as described
           above. The current Forward Pricing Rates are shown in Figure 2-22, FFS
           FY 07 Forward Pricing Rates/Factors as of 10APR2007. For the purposes
           of this estimate, it is assumed that the current forward pricing rates continue
           to apply for both FY 2007 and FY 2008.

       FIGURE 2-22 – FFS FY 07 Forward Pricing Rates/Factors as of 10 APR 2007
       Fluor Federal Services
       Effective        Description           Group Code        Rate          or Application
                                                                Factor           Base
       21-Mar-07          Labor            GF/GK                54.30%           Domestic field
                          Overhead       –                                       labor $
                          domestic field
       21-Mar-07          Support    Cost                       27.99%
                          Rate
       11-Nov-06          Burden       and                      26.31%
                          Benefit Rate
       21-Mar-07          G&A                                   4.15%              Total Cost
                                                                                   except COM
       21-Mar-07          Facilities                            0.2060%            Total Cost
                          Capital Cost of                                          except G&A
                          Money (COM)


Importantly, the solicitation, like the Contract, included Clause H.20. Yet, DOE did not take issue
with SRNS’s proposed labor rates for “reachback” personnel—even though the labor rates clearly
include FFS G&A, which in turn includes home office expense allocations to FFS from Fluor and FGG
Hq. To the contrary, DOE accepted SRNS Proposal DE-RP09-06SR2246 without exception upon
Contract award to SRNS. See Ltr from Contracting Officer (“CO”) Angela S. Morton to SRNS, dtd.
Jan. 10, 2008. Presumably, the reason DOE did not take exception to the proposed labor rates is that
the CO correctly distinguished between the labor costs of FFS employees who are working under the
Contract as seconded employees or employees on short or long term assignments, and home office
expenses allocated either directly or indirectly to SRNS.

The Draft Notification misses the mark by examining the types of costs included in the FFS G&A pool
to determine whether the costs are “native” to FFS or an allocation from Fluor. What matters is not
what the costs represent vis-á-vis FFS, but what they represent in relation to SRNS. SRNS was billed
for the fully burdened labor rates of the FFS employees providing services under the Contract. SRNS
was not billed for any corporate allocations. In analogous circumstances, the Armed Services Board of


                                                                                             Page 14
Contract Appeals rejected the Government’s attempt to disallow a prime contractor’s cost based on the
nature of the cost in relation to the subcontractor. In Johnson Controls World Services, Inc., ASBCA
Nos. 46674 et al., 96-2 BCA ¶ 28,464, the Government argued that Johnson Controls World Services,
Inc. (“JCWS”) was not entitled to reimbursement of monies that its subcontractor, Support Services,
Inc. (“SSI”) paid to the Internal Revenue Service as interest on overdue taxes. The ASBCA found that
FAR 31.205-20 bars reimbursement of interest levied for the late payment of taxes. However, the
ASBCA held that that was an insufficient basis to disallow JCWS’s costs because JCWS was billed for
wages and employee tax withholding, not for interest. The ASBCA stated:

        The Army, thus, is correct in asserting that there is a regulatory Cost Principle which
        bars reimbursement of interest assessed on overdue taxes…. However, to sustain its
        disallowance of the subcontractor cost, the Army cannot cite only to the Cost
        Principles and the fact the IRS treated a SSI payment as satisfying a particular
        obligation. The sole fact cited does not demonstrate that the subcontractor cost
        “invoiced” is of a type specifically made unallowable. JCWS contends that it
        reimbursed SSI for the cost of wages/employee FICA withholding that SSI incurred
        and accrued in performing services under the contracts and that it “invoiced” the Army
        for such cost…. The Army presents no evidence to the contrary, i.e., that the Army
        was “invoiced” for interest assessed to SSI…. The Cost Principles state that wages,
        such as those SSI paid its employees and withheld as employee FICA tax pursuant to
        26 U.S.C. §§ 3101 and 3012, are “allowable,” subject to specific criteria set forth in
        the Cost Principles…. The Army has not shown any specific criterion for allowability
        set forth that was not satisfied…. The Army therefore has failed to satisfy its burden
        of demonstrating that the subcontractor cost invoiced is of a type specifically made
        unallowable.

Similarly, here, SRNS was invoiced for the labor costs of the “reachback” employees, not for any
corporate allocations.

Finally, the Draft Notification is mistaken in questioning FFS’s Facilities Capital Cost of Money
(“FCCM”). Clause I.1 of the Contract incorporates FAR 52.215-17, Waiver of Facilities Capital Cost
of Money, which states: “The Contractor did not include facilities capital cost of money as a proposed
cost of this contract. Therefore, it is an unallowable cost under this contract.” SRNS, the Contractor,
did not propose FCCM for this Contract in its proposal and has not invoiced DOE for FCCM. On the
other hand, FFS did propose FCCM in its proposal contained in Section 2 of Volume III of SRNS’s
proposal for this Contract and did not waive reimbursement for FCCM. FFS is not the Contractor and
therefore, is not subject to the above waiver clause. Thus, FFS may invoice and be reimbursed for
FCCM under the Contract.

Thank you again for the opportunity to respond to the Draft Notification. For the reasons discussed
above, we disagree with KPMG’s finding and recommendation.

Auditors’ Response:
In its response, SRNS clarified the difference between Fluor Federal Services (FFS) – a CAS segment
of Fluor Government Group Headquarters (“FGG Hq”), and Fluor Federal Services, Inc (FFSI) - the
legal entity that owns a 48% share of SRNS. As such, we have updated the related discussion of these
entities in our report and finding.
While this clarification is appropriate, the following forms the basis for our finding:


                                                                                                  Page 15
•   SRNS and FFS are segments (within the definition of CAS 403.30(a)(4)) reporting to an
    intermediate home office, Fluor Government Group Headquarters (FGG Hq) which in turn directly
    reports to a home office, Fluor Corporation (Fluor). SRNS confirms this understanding in its
    management response.
•   In accordance with CAS 403.40, both SRNS and FFS receive home office expense allocations from
    Fluor and FGG Hq, home office and intermediate home office, respectively. According to
    management’s response, SRNS’ share of home office expense allocated to it under CAS 403 are
    not billed to DOE because they are treated as unallowable cost under Clause H-20. However, FFS’
    share of these home office expenses allocated to it by Fluor and FGG Hq are included in its G&A
    costs applied to “reachback” labor costs which are billed to SRNS and in turn billed to DOE.
•   In its management response, SRNS states “SRNS’s proposed labor rates for “reachback”
    personnel…clearly include FFS G&A, which in turn includes home office expense allocations to
    FFS from Fluor and FGG Hq. As such, SRNS acknowledges that “home office” expenses are
    included in FFS G&A rates, which in turn is billed to DOE through the FFS “reachback” labor
    costs billed to SRNS. However, we were not privy to and were not provided documentation
    regarding proposal evaluations, or any pre-award negotiations and/or advanced agreements with
    DOE regarding the proposed “reachback” labor rates.
•   SRNS’ management response states “Although the fully burdened labor rates for the “reachback”
    personnel include overhead and general and administrative (“G&A”) expenses, those costs are not
    “home office expenses … relating to activities of the Contractor…They are instead home office
    expenses allocated to—and relating to the activities of—FFS.” Management’s response goes on to
    state “the overhead and G&A allocations to FFS are not incurred in the general management of
    SRNS’s business as a whole.” SRNS’ assertion that “G&A allocations to FFS are not incurred in
    the general management of SRNS’s business as a whole” is questionable because in accordance
    with CAS 403.40, home office expenses are allocated to segments on the basis of the beneficial or
    causal relationship between supporting and receiving activities. Therefore, SRNS and FFS received
    “home office” expense allocations from Fluor and FGG Hq for benefits received from activities
    performed at Fluor (home office) and FGG Hq (intermediate home office) and such expenses were
    presumably incurred in the general management of the business as a whole rather than relating to
    the activities of FFS or SRNS, specifically. Therefore, these costs could be considered “home or
    corporate office general and administrative expenses incurred in the general management of the
    contractor’s business as a whole” under DEAR 970.3102-3-70.
•   SRNS’ management response states “the labor costs of the “reachback” are instead governed—and
    permitted—by Clause I.56(e)(4), which states in pertinent part: “Allowable costs in the purchase or
    transfer from contractor affiliated sources shall be determined in accordance with 48 CFR
    970.4402-3 and 48 CFR 970.3102-3-21(b)”. The corporate reachback program is a “human
    resources” function according to SRNS’ General Counsel. The “reachback” arrangement is
    executed through inter-organizational agreements called Loaned Employee Agreement and Cost
    Transfer Agreement. As such, the labor costs of the “reachback” are not governed by 48 CFR
    970.4402-3. 48 CFR 970.4402-3(a) states “A management and operating contractor may purchase
    from sources affiliated with the contractor (any division, subsidiary, or affiliate of the contractor or
    its parent company) in the same manner as from other sources, provided…(3) Award is made in
    accordance with policies and procedures designed to permit effective competition which have been
    approved by the contracting officer”. SRNS has not shown that the FFS reachback was a
    competitive procurement approved by the contracting officer.
•   FAR 31.205-26(e) requires that, “Allowance for all materials, supplies and services that are sold or
    transferred between any divisions, subdivisions, subsidiaries, or affiliates of the contractor under a

                                                                                                   Page 16
   common control shall be on the basis of cost incurred in accordance with this subpart (FAR 31.2).”
   FFS is an affiliate of SRNS under common control. In accordance with 31.205-10, FCCOM is an
   allowable contract cost, provided among other conditions, “The estimated facilities capital
   FCCOM is specifically identified and proposed in cost proposals relating to the contract under
   which the cost is to be claimed.” SRNS included FCCOM in its FFS affiliate cost proposal to
   DOE. However, FAR subpart 31.2 also requires the contractor to comply with applicable agency
   supplements (see 31.201-2(d). 48 CFR 970.4402-3(c)(2) requires that “When a purchase from a
   contractor-affiliated source is made non-competitively, FCCOM shall not be considered an
   allowable element of the cost of the contractor-affiliated source”.
We also note that the DOE M&O Contract DE-AC09-08SR22470, Clause I51(j), Determining
Allowable Costs, states, “the Contracting Officer shall determine allowable costs in accordance with
the Federal Acquisition Regulation subpart 31.2 and the Department of Energy Acquisition Regulation
subpart 48 CFR 970.31 in effect on the date of this contract and other provisions of this contract.”


Conclusion

Based upon the audit procedures performed and the results obtained, we have met our audit objective.
We conclude that the results and conclusions reported by SRNS Internal Audit on its Corporate
Reachback Floor Check Review of invoices for loaned employees from FFS was accurate and
complete as relates their audit objectives. The results of our work disclosed that Savannah River
Nuclear Solutions, LLC’s costs incurred for contract DE-AC09-08SR22470, for the period August 1,
2008 through August 21, 2012, included home office expenses of $1,256,481 and $36,763 in FCCOM
resulting from its use of Fluor Federal Services loaned employees. Subsequent to our review, the
Savannah River Operations Office Contracting Officer initiated action to disallow the $1,256,481 in
home office expenses.




                                                                                             Page 17
                                                                    IG Report No. OAS-L-13-08


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
